                                              EMPLOYMENT AND TRAINING ADMINISTRATION



Office of Inspector General—Office of Audit




                                              Audit Of Allegations Regarding ETA Funds
                                              Granted To Arkansas




                                                                           Date Issued: March 31, 2005
                                                                       Report Number: 06-05-002-03-390
U.S. Department of Labor
Office of Inspector General
Office of Audit                                          March 2005

                                                         AUDIT OF ALLEGATIONS REGARDING ETA

BRIEFLY…                                                 FUNDS GRANTED TO ARKANSAS

                                                         WHAT OIG FOUND
Highlights of Report Number: 06-05-002-03-390, to
the Employment and Training Administration               The OIG found that the Arkansas Workforce
regarding Workforce Investment Act (WIA) funds           Investment Board (AWIB) used $859,904 in WIA
granted to the State of Arkansas.                        funds to reimburse the Nestle Corporation for
                                                         economic development rather than allowable
WHY READ THE REPORT                                      incumbent worker training activities. We found that
                                                         AWIB promised the funds to Nestle before it built the
The Arkansas Employment Security Department              plant or hired workers. Because Nestle used the
(AESD) receives Workforce Investment Act (WIA)           funds to cover its start-up training costs, we
funds and Federal Unemployment Insurance (UI)            questioned whether the funds met the legislative
and Wagner-Peyser grants from the Department of          intent of the incumbent worker program
Labor’s Employment and Training Administration
(ETA) to support a range of statewide and local          We also concluded the Arkansas Employment
workforce development programs. Under section            Security Department (AESD) was leasing a building
134 of WIA, statewide activities may include             that was 67 percent vacant and was incurring
providing funds to employers to upgrade the skills of    significant monthly space costs. To be an allowable
current employees. Such incumbent worker training        cost to Federal Unemployment Insurance (UI)
programs provide a critical tool for states and local    grants, OMB Circular A-87, section C1a, requires a
communities in their efforts to retain business and      cost to be reasonable and necessary for the proper
industry by keeping the workforce competitive.           and efficient administration of Federal awards. We
                                                         believe that $347,586 of space costs charged to UI
                                                         grants from April 2003 through October 2004 is
WHY OIG DID THE AUDIT                                    questionable since the costs were neither proper nor
                                                         efficient.
At the request of the Arkansas Division of Legislative
Audit (ADLA), the Office of Inspector General (OIG)      WHAT OIG RECOMMENDED
evaluated a complaint that Arkansas misused over
$1.2 million in DOL funds. We audited two                We recommended that the Assistant Secretary for
allegations contained in a complaint received by the     Employment and Training disallow and recover the
ADLA. The first allegation concerned the                 $859,904 that the State paid to Nestle and disallow
questionable use of WIA incumbent worker funds as        the $347,586 of UI costs incurred for vacant office
an incentive for the Nestle Corporation to locate a      space through October 31, 2004,and any other
new plant in Jonesboro, Arkansas. The second             charges for vacant space since October 2004.
allegation charged that AESD used Wagner Peyser
and UI grants to pay for vacant office space in a        In its response to the draft report, the State said that
building when ASED relocated its Rapid Response          AWIB intended for the Nestle project to “be an
unit.                                                    extension of the Incumbent Worker Training
                                                         Program.” With regard to the use of UI grant funds
READ THE FULL REPORT                                     to pay for vacant space in a building leased by
                                                         AESD, the State explained that the vacancies
To view the report, including the scope,                 occurred because a lack of funding resulted in the
methodology, and full agency response, go to:            termination or lack of renewal of subleases. Also,
http://oig.dol.gov/public/reports/oa/2005/06-05-002-     some of the space was vacated when the AESD
03-390.pdf                                               moved its Rapid Response unit to another building
                                                         due to the discovery of mold in the spaced occupied
                                                         by the Rapid Response unit in the leased building.

                                                         Our findings and recommendations remain
                                                         unchanged.
                                          Audit Of Allegations Regarding ETA Funds Granted To Arkansas




Table of Contents
                                                                                                                     Page


EXECUTIVE SUMMARY ................................................................................................ 3

ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

    Finding 1- The costs charged to the WIA Incumbent Worker grant funds
               are questioned as a result of our conclusion that the AWIB
               payments to Nestle Corporation was an economic development
               incentive for the company to locate in Jonesboro, Arkansas. ......... 6

    Finding 2 - AESD is leasing a building that is 67 percent vacant and is
                incurring significant unallowable monthly space costs. ................ 13

APPENDICES ............................................................................................................... 15

    A.    Background...................................................................................................... 17
    B.    Objective, Scope, Methodology and Criteria................................................. 19
    C.    Acronyms and Abbreviations ......................................................................... 21
    D.    Auditee Response .......................................................................................... 23




U.S. Department of Labor—Office of Inspector General                                                                       1
Report Number: 06-05-002-03-390
Audit Of Allegations Regarding ETA Funds Granted To Arkansas




                      THIS PAGE INTENTIONALLY LEFT BLANK




2                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-05-002-03-390
                                Audit Of Allegations Regarding ETA Funds Granted To Arkansas




Executive Summary
The Arkansas Division of Legislative Audit (ADLA) requested the Office of Inspector
General’s assistance in reviewing the allegations involving U. S. Department of Labor
(DOL) funds. We conducted a performance audit regarding two of several issues in a
complaint received by the ADLA alleging mismanagement of state and/or Federal funds
by the State of Arkansas. The first issue concerned Workforce Investment Act (WIA)
grants management by the Arkansas Workforce Investment Board (AWIB), the
Arkansas Employment Security Department (AESD), and the Northeast Arkansas
Workforce Investment Board (NEAWIB). The second issue concerned the payment of
Wagner-Peyser (WP) and Unemployment Insurance (UI) grants for vacant office space.
We concluded that the remaining allegations were addressed in a report issued by
ADLA.

Findings

The first complaint issue alleged questionable use of WIA Incumbent Worker funds to
pay an incentive for a company to locate in Jonesboro, Arkansas. We found Nestle
Corporation (Nestle) was promised $1 million in Workforce Investment Act (WIA)
training funds to locate a new plant in Jonesboro, Arkansas. While the NEAWIB had
initially voted to allocate $1 million training funds to Nestle, it was the AWIB that
eventually contracted with and paid Nestle $859,904 of its WIA 15 percent “statewide
activities set aside funds,” after making additional statewide funds available, on the
basis that Nestle was training incumbent workers.

We concluded that the $859,904 the AWIB reimbursed Nestle, was, in fact, for
economic development activities prohibited under WIA regulations (Section 667.262).
The funds were promised to Nestle long before the plant was constructed or any
employees were hired. All new hires to open the plant were considered incumbent
workers. Most participants whose files we reviewed were currently employed at the
time they applied at Nestle, some moving in from out of state. The preamble to the WIA
Rules and Regulations provides that, generally, incumbent worker training is developed
with an employer to upgrade skills of a particular workforce. We question whether the
$859,904 that AWIB paid to Nestle meets the intent of the WIA incumbent worker
training program (i.e., to assist employers in upgrading the skills of current workers).
As a result, we question these costs as an unreasonable use of WIA funds available for
incumbent worker training. (See finding 1, page 6.)

The complaint also alleged that the AESD was incurring costs for a substantial amount
of vacant space in Little Rock, Arkansas. We determined that 67 percent of the leased
building in question has been vacant since April 2003 resulting in $347,586 of
questionable space costs charged to UI grants from April 2003 through October 2004.
If the situation remains the same, additional costs of $18,294 per month since October
2004 will continue to be improperly charged to DOL grants. (See finding 2, page 13.)

U.S. Department of Labor—Office of Inspector General                                      3
Report Number: 06-05-002-03-390
Audit Of Allegations Regarding ETA Funds Granted To Arkansas


Recommendations

We recommend the Assistant Secretary for Employment and Training disallow and
recover from the State:1) the $859,904 of WIA funds paid to Nestle; and 2) the
$347,586 of UI funds paid for costs of vacant space through October 4, 2004, plus any
additional unallowable space costs incurred since November 2004.

Agency Response

The State responded that the State Workforce Board intended for the Nestle project to
be an extension of its properly established State’s Incumbent Worker Training Program
and was not intended to circumvent WIA law that prohibits utilizing Federal WIA funds
for economic development projects.

With regard to the use of UI grant funds to pay for vacant space in a building leased
by AESD, the State responded that based on lack of funding, all subleases were
terminated or not renewed. Also, since mold was discovered in parts of the building
occupied by the Arkansas Employment Security Department Rapid Response unit,
the unit was moved to rent-free space in the AESD central office.

The State believes the Arkansas Workforce Investment Board and the Arkansas
Employment Security Department acted in good faith in making the decisions that
are questioned in the draft audit report.

A copy of the State’s complete response is included in this report as Appendix D.

OIG Conclusion

The State of Arkansas already had an established “incumbent worker” training program
prior to WIA -- with participant eligibility and eligible companies defined -- operated by
the Arkansas Department of Economic Development. That program defines incumbent
worker as a “person working at an Arkansas company, who has been working at the
company for at least twenty-six (26) weeks and who works at least thirty (30) hours a
week.” Therefore, the State should not have to define “incumbent worker’ differently for
the State’s WIA federally-funded incumbent worker training program. The program
provides funds for training the incumbent workers of “existing state businesses.”

The Nestle contract was negotiated prior to Nestle locating in Jonesboro and before the
company had any employees. Therefore, we still conclude that WIA funds were used,
under the guise of an incumbent worker training program, as an incentive for Nestle to
locate to Jonesboro and to supplant the company’s start-up training costs.

The State did not provide any information regarding the vacant space that was not
already considered prior to the draft report.

The report’s findings and recommendations remain unchanged.

4                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-05-002-03-390
                                Audit Of Allegations Regarding ETA Funds Granted To Arkansas


U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC. 20210




                        Assistant Inspector General’s Report


Emily Stover DeRocco
Assistant Secretary for
 Employment and Training



The Arkansas Division of Legislative Audit (ADLA) received a complaint including
multiple allegations of possible mismanagement of State and/or Federal grant funds by
the Arkansas Workforce Investment Board (AWIB), the Arkansas Employment Security
Department (AESD), and the Northeast Arkansas Workforce Investment Board
(NEAWIB). The ADLA requested the Office of Inspector General’s (OIG) assistance,
and we conducted a performance audit of the allegations involving U.S. Department of
Labor (DOL) grant funds.

Our objective was to answer the following two questions:

       1.     Did the AWIB improperly use WIA Incumbent Worker funds to pay an
              incentive to Nestle Corporation to locate a new plant in Jonesboro,
              Arkansas?

       2.     Did the AESD use Wagner-Peyser (W/P) and Unemployment Insurance
              (UI) grant funds contrary to applicable Federal cost principles to pay for
              vacant space at 4th and Main in Little Rock, Arkansas?

We found Nestle Corporation (Nestle) was promised $1 million in Workforce Investment
Act (WIA) training funds to locate a new plant in Jonesboro, Arkansas. We also
determined that 67 percent of the leased building in question has been vacant since
April 2003 resulting in $347,586 of questionable space costs charged to UI grants from
April 2003 through October 2004.

We conducted our performance audit in accordance with Government Auditing
Standards. Our audit scope, methodology, and criteria are detailed in Appendix B.




U.S. Department of Labor—Office of Inspector General                                       5
Report Number: 06-05-002-03-390
Audit Of Allegations Regarding ETA Funds Granted To Arkansas


Objective 1 – Did the AWIB improperly use WIA Incumbent Worker funds to pay
an incentive to Nestle Corporation to locate a new plant in Jonesboro,
Arkansas?

Finding 1 – The costs charged to the WIA Incumbent Worker grant funds are
questioned as a result of our conclusion that the AWIB payments to Nestle
Corporation were an economic development incentive for the company to locate
in Jonesboro, Arkansas.


The complaint alleged that it was improper to use WIA Incumbent Worker funds to pay
an incentive for a company to locate in Jonesboro, Arkansas. We found that prior to
Nestle locating to Jonesboro, the AWIB approached the NEAWIB about making training
funds available for Nestle. NEAWIB promised Nestle Corporation $1 million in WIA
training funds to locate a new plant in Jonesboro, Arkansas. The NEAWIB initially
agreed to provide Nestle $1 million in training funds from its local formula grant funding
over a 3 program-year period. This commitment was contingent upon Nestle meeting
on-the-job training (OJT) rules for training. Since most of Nestle’s new hires did not
meet the OJT eligibility rules, the NEAWIB did not honor the commitment. Therefore,
the State AWIB contracted with Nestle and paid $859,904 of its WIA 15 percent
“statewide activities set aside funds,” after making additional statewide funds available;
on the basis that Nestle was training incumbent workers.

WIA Final Rules, 20 CFR Subpart 667.262, states:

       (a) WIA title I funds may not be spent on employment generating
       activities, economic development, and other similar activities, unless they
       are directly related to training for eligible individuals.

These WIA funds directly benefited Nestle by supplanting Nestle’s supervisory costs
that would normally be incurred as part of a plant startup.

According to the WIA rules (20 CFR Subpart 665.220), states may define who is eligible
for incumbent worker training as long as they are limited to individuals who are
employed. Arkansas did not have a policy defining “incumbent worker” eligibility other
than its “Arkansas Incumbent Workforce Training Program Application and Instructions.”
This document provides on page 5:

       The goal of Arkansas’ Incumbent Workforce funds is to train the current
       and newly hired workers as industry demands. . . .

We interpret this passage to make eligible for incumbent worker training any worker in
the State of Arkansas whether they worked for an employer 5 minutes, I day, or 30
years. Consequently, we concluded that defining newly hired employees for a startup
plant as incumbent workers circumvents applicable WIA rules.



6                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-05-002-03-390
                                Audit Of Allegations Regarding ETA Funds Granted To Arkansas


Furthermore, in this instance the State did not follow the process it had already
established for incumbent worker training; i.e., competitively awarded contracts not to
exceed $175,000 each. Rather, the State noncompetitively awarded $863,504 of WIA
incumbent worker training funds to Nestle, as part of the incentive promised prior to the
company locating a new plant in Arkansas.

The WIA of 1998 (P.L. 105-220), Title I, Subtitle B, Section 128 (a) states:

       (1) IN GENERAL. -The Governor of a State shall reserve not more
           than 15 percent of each of the amounts allotted to the State
           under section 127(b)(1)(C) and paragraphs (1)(B) and 2(B) of
           section 132(b) for a fiscal year for statewide workforce
           investment activities.

       (2) USE OF FUNDS . . . the Governor may use the reserved amounts to
           carry out statewide youth activities described in section 129(b) or
           statewide employment and training activities, for adults or for dislocated
           workers, described in paragraph (2)(B) or (3) section 134(a).

WIA, Section 134(a)(3)(A)(iv)(I) provides:

       3) IN GENERAL. - A State may use funds reserved . . . to carry out
       additional statewide employment and training activities, which may include-
       implementation of innovative incumbent worker training programs. . . .

We concluded that the $859,904 the AWIB reimbursed Nestle was for economic
development specifically benefiting Nestle rather than participants. We question
whether this “incumbent worker” training contract meets the intent of the WIA (i.e.,
training funds are to benefit participants) and question these costs as an unreasonable
use of WIA funds available for incumbent worker training.

Our conclusion is based on the following evidence:

   •    Promises were made to Nestle Corporation before Nestle even completed
        construction of its plant in Jonesboro. The guise of an incumbent worker training
        program was used to fund this commitment.

The following chronology shows how Nestle’s funding developed.

            The May 8, 2001, AWIB executive committee minutes discussed arranging
            $500,000 in training funds for an industrial project in Northeast Arkansas.

            The June 7, 2001, NEAWIB executive committee minutes show the
            committee approved a motion to allocate up to $1 million for the potential
            industry that may locate in Jonesboro subject to the WIA guidelines and the
            availability of funding.


U.S. Department of Labor—Office of Inspector General                                      7
Report Number: 06-05-002-03-390
Audit Of Allegations Regarding ETA Funds Granted To Arkansas




               The July 26, 2001, minutes of the NEAWIB quarterly meeting shows the
               board approved the $1 million contingent upon the funding being made
               available to the area within the limitations, constraints, and requirement for
               training over a 3 program-year-period.

               On July 27, 2001, the Governor announced that Nestle USA would construct
               a facility in Jonesboro, Arkansas.

               In the August 14, 2001, AWIB executive committee minutes, the AWIB
               Director, indicated that the State Department of Economic Development was
               searching for $1 million to support training for the Nestle plant and asked the
               AWIB Director for help. The AWIB Director indicated that she turned to the
               NEAWIB, and the State board approved a transfer of 20 percent of dislocated
               worker funds to adult funds to acquire $1 million needed to train the workers.

               In the January 22, 2003, AWIB executive committee minutes the chairman
               explained that NEAWIB had committed OJT training funds for Nestle but that
               WIA eligibility guidelines excluded most Nestle employees from OJT. The
               chairman stated that the incumbent worker training program has its own
               eligibility guidelines that allow Nestle employees to receive training. He
               explained that the request for $900,000 of incumbent worker training funds for
               the Nestle contract would be in addition to the $1.75 million set aside for the
               statewide incumbent worker training program.

As the above chronology shows, both the AWIB and the NEAWIB took steps to make
training funds available for Nestle in 2001, prior to Nestle locating a plant in Jonesboro.
At the State’s request, in July 2001, the NEAWIB agreed to provide Nestle $1 million
over a 3-program-year period contingent upon Nestle meeting WIA OJT rules. This
was long before Nestle completed construction of the Jonesboro plant in late 2002.

When it was determined that Nestle could not meet the OJT program eligibility rules, the
NEAWIB withdrew its commitment. To fulfill the State’s commitment to Nestle, on
February 4, 2003, the AWIB allocated additional funds from those available for WIA
statewide activities in an $863,5041 contract with Nestle for incumbent worker training.

By the time the State actually awarded the funds for incumbent worker training in
February 2003, Nestle had hired employees for the Jonesboro plant. However, since
the award fulfilled a commitment made substantially prior to the existence of the plant or
hiring any employees, we concluded the objective of this award was to fulfill the prior
State economic development commitment. The method used was under the guise of
incumbent worker training.

Of the 20 employees whose files we reviewed, all were hired during 2003 after the
AWIB’s commitment of funds for Nestle.
1
    Only $859,904 was paid to Nestle.

8                                            U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 06-05-002-03-390
                                Audit Of Allegations Regarding ETA Funds Granted To Arkansas




   •   The AWIB did not adhere to its incumbent worker program guidelines that were
       in place at the time it awarded Nestle its incumbent worker funds.

The WIA allows states to set aside15 percent of their WIA adults, youth and dislocated
workers grant funds for statewide activities, including incumbent worker training
programs. In Arkansas, these WIA funds are received by the AESD and allocated by
the AWIB.

We compared the differences in the AWIB’s procedures used for the incumbent worker
program already in place and those used for the separate award to Nestle. In Program
Year (PY) 2002, the AWIB made $1.75 million in incumbent worker training funds
available to businesses and industries throughout the State to help train existing
employees. The funding was limited to $175,000 per application, with the funds
available to employers in the 10 local workforce areas throughout the State. When one
AWIB member suggested establishing a request for proposal (RFP) process with the
funds kept in one lump sum for the whole State, the head of the incumbent worker
committee stated that if one area applied for the entire amount, nine workforce areas
would be left without an opportunity to bid.

The $1.75 million incumbent worker training funds were to be competitively awarded,
with priority given to companies that requested assistance to avoid a significant layoff or
to achieve a significant upgrade in employees’ skills, and that planned to utilize
Arkansas public and private providers to provide the training.

Yet, the AWIB made available, noncompetitively, an additional $863,504 to Nestle
(almost half as much as the previous $1,75 million allocation of PY 2002 funds), leaving
no opportunity for the nine other workforce areas to competitively bid for those dollars.
Furthermore, the funds provided to Nestle were not provided to avoid a significant layoff
or achieve a significant upgrade in employees’ skills, and Nestle did not utilize Arkansas
public and private providers to provide the training; most training was on-the-job training
with the training costs being supervisors’ salaries.

The AWIB awarded approximately 60 competitive grants statewide (total $1.75 million)
through its PY 2002 incumbent worker training funds as opposed to the 1
noncompetitive $863,504 contract issued to Nestle. Nestle was pre-selected to receive
a new allocation of WIA funds which were, therefore, not made available for statewide
activities. Rather, the AWIB used WIA to fulfill a commitment that had been made to
assist economic development efforts in Jonesboro.

   •   Incumbent worker was not defined by the AWIB in any official policy statement
       other than its incumbent worker program application instructions that states the
       goal of Arkansas’ incumbent workforce funds is to train “current or newly hired”
       workers.




U.S. Department of Labor—Office of Inspector General                                      9
Report Number: 06-05-002-03-390
Audit Of Allegations Regarding ETA Funds Granted To Arkansas


The AWIB did not establish a separate definition of incumbent worker for the Nestle
contract even though the contract was not awarded within the existing PY 2002 program
guidelines. The AWIB staff stated the PY 2002 incumbent worker program guidelines
(i.e., program application and instructions) that referred to any current or newly hired
worker would also apply to the grant with Nestle. Under that definition (current or newly
hired), we concluded that the AWIB’s position was that any worker in the State would
qualify as an incumbent worker for Arkansas’ WIA grant purposes.

The preamble to the WIA Rules and Regulations published in Federal Register, Volume
65, No. 156, August 11, 2000, states on page 49333:

         Generally, incumbent worker training is developed with an employer or
         employer association to upgrade skills of a particular workforce. . . .

We do not believe that new hires for a plant start up would qualify for “upgrading skills.”

The AWIB did not have a reasonable basis to treat newly hired Nestle employees as
incumbent workers under its WIA grant funds reserved for statewide activities when the
award was to fulfill the State’s commitment prior to either constructing the plant or
employing staff at the plant. The AWIB’s promise of funds to Nestle based on location
of a new plant in Jonesboro, Arkansas, actually represented economic development
activities rather than incumbent worker training for an established enterprise.

     •   Many individuals hired by Nestle left other jobs, even outside Jonesboro, to work
         for Nestle.

At the time we visited the Jonesboro plant, in September 2004, the manager stated that
there were approximately 390 employees although the plan was to employ about 420
employees. As part of obtaining an understanding of the use of WIA funds awarded to
Nestle, we reviewed 20 personnel files for staff and management trainees that were all
hired in 2003. Thirteen of the 20 individuals we reviewed were already employed at the
time they applied for the job with Nestle. One of the 20 employees we reviewed left
employment in Florida to take the job with Nestle in Jonesboro. Some were also recent
university graduates.

     •   The Nestle employee training was not training to upgrade skills of an employers
         existing workforce to keep up with technology changes to allow employees to
         keep their jobs or to learn upgraded skills to be promoted to a higher paying job.
         The training was for new hires to start up a new plant.

The award to Nestle clearly did not provide training for an existing workforce since the
Jonesboro plant did not began processing product until about March 2003, and most
employees were hired in 2003. The plant manager was transferred to Jonesboro in
2002, almost a year after the initial State commitment to the company. Thus, the AWIB
used WIA funding for economic development as an incentive to Nestle to locate a new
plant in Jonesboro rather than for incumbent worker training as intended by the WIA.

10                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-002-03-390
                                Audit Of Allegations Regarding ETA Funds Granted To Arkansas




   •   Costs reimbursed for Nestle was supervisors’ salaries, 8 hours a day, 5 days a
       week based on an average hourly wage.

The AWIB contract with Nestle was used to pay part of the cost of supervisor salaries at
the plant in Jonesboro, billed under the grant at 8 hours per day, 5 days per week;
rather than for outside training instructors or courses. The newly constructed plant had
both new production equipment and all new employees. Thus, all employees received
OJT including some with training provided by original equipment manufacturing
representatives, prior to production start-up. Additionally, employees received some
classroom training in plant operating policies and procedures. We concluded the State
supplanted Nestle’s supervisory costs that would normally be incurred as part of a plant
startup. Consequently, we question these costs as allowable Federal grant costs.

While we agree that the Nestle employees received training, the NEAWIB had already
decided that the company training for newly hired employees would not qualify for its
WIA funded OJT program. Since the Nestle training was OJT for new hires, and neither
the plant nor jobs existed at the time the State commitment was made, it is questionable
whether any of the costs for Nestle supervisors or managers qualified under the Federal
rules for the WIA incumbent worker training program.

The WIA Final Rule, 20 CFR Subpart 665.210 (d)(1), states that allowable Statewide
workforce investment activities include:

       Innovative incumbent worker training programs, which may
       include an employer loan program to assist in skills upgrading. . . .

While Nestle did not receive a loan -- it received a contract -- no skills upgrading
occurred for an existing workforce at the Nestle plant because the employees were all
newly hired for starting up production at the plant, which was newly constructed.

Based on the foregoing discussion, we question the allowability, under the WIA, of the
$859,904 paid to Nestle for this “incumbent worker” training contract.

Recommendation

1. We recommend that the Assistant Secretary for Employment and Training disallow
   and recover from the State the $859,904 paid to Nestle for economic development
   activities under the guise of incumbent worker training.




U.S. Department of Labor—Office of Inspector General                                     11
Report Number: 06-05-002-03-390
Audit Of Allegations Regarding ETA Funds Granted To Arkansas




Arkansas Employment Security Department’s Response

AESD’s response, included in Appendix D, states:

       The State Workforce Investment Board had properly established an
       Incumbent Worker Training Program (IWTP) within the state of
       Arkansas. It was the intent of the Board for the Nestle project to be
       an extension of the Incumbent Worker Training Program and in no
       wise intended to circumvent WIA law that prohibits utilizing Federal
       WIA funds for economic development projects.

OIG Conclusion


The State of Arkansas already had an established “incumbent worker” training program
prior to WIA -- with participant eligibility and eligible companies defined -- operated by
the Arkansas Department of Economic Development.

The Arkansas Existing Workforce Training Act (Act 791 of 1995), as amended by
Senate Bill 280 during the 82nd General Assembly, Regular Session, 1999, provides that
“eligible recipients” for such training program means “a full-time permanent employee of
an Arkansas company. . . .” The Rules and Regulations for this training program
defines a “full-time permanent employee” as a person “working at an Arkansas
company, who has been working at the company for at least twenty-six (26) weeks and
who works at least thirty (30) hours a week.” In addition, an eligible company was
defined as one that had filed an Arkansas income tax return for the year before filing an
application for incumbent worker training funds.

Since the State already had a definition of “incumbent worker” for its State incumbent
worker training program operated by the Arkansas Department of Economic
Development, the State should not have defined “incumbent worker’’ differently for the
State’s WIA federally-funded incumbent worker training funds provided to Nestle.
Furthermore, the State training program provides that incumbent worker training should
be provided to existing State businesses. The Nestle contract was negotiated prior to
Nestle locating in Jonesboro and before the company had any employees.

We, therefore, conclude that WIA funds were used, under the guise of an incumbent
worker training program, as an incentive for Nestle to locate to Jonesboro and to
supplant the company’s start-up training costs.

Our finding and recommendation is unchanged.




12                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-05-002-03-390
                                Audit Of Allegations Regarding ETA Funds Granted To Arkansas


Objective 2 – Did the AESD use Wagner-Peyser (W/P) and Unemployment
Insurance (UI) grant funds contrary to applicable Federal cost principles to pay
for vacant space at 4th and Main in Little Rock, Arkansas?

Finding 2 – AESD is leasing a building that is 67 percent vacant and is incurring
significant unallowable monthly space costs.

The complaint stated that AESD was incurring UI administrative costs for a substantial
amount of vacant space in Little Rock, Arkansas. To be an allowable cost to Federal UI
grants, OMB Circular A-87, section C1a, requires a cost to be reasonable and
necessary for the proper and efficient performance and administration of Federal
awards. Furthermore, the Social Security Act, Title III, Section 302(a) provides:

       The Secretary of Labor shall . . . certify . . . for payment to each State
       which has an unemployment compensation law . . . such amounts as the
       Secretary of Labor determines to be necessary for the proper and
       efficient administration of such law. . . .

We determined that $347,586 of space costs charged to UI grants from April 2003
through October 2004 is questionable since the costs were neither proper nor efficient.

AESD leased a building at 125 West 4th Street in Little Rock, Arkansas, beginning in
November 1999 to provide additional space for its staff and to establish a
comprehensive WIA One-Stop system. This building housed various AESD programs,
including the UI program, the Employment Assistance Unit and the Rapid Response
Unit. AESD subleased to other agencies such as the City of Little Rock's Welfare-to-
Work program, the Little Rock Career Development Center (City of Little Rock's One-
Stop provider) and various One-Stop providers.

When first leased, the 4th Street building was fully occupied but is now 67 percent
vacant. Starting in 2002, various agencies began vacating the premises. Some
agencies lost funding and the One-Stop operation moved to another location at
University Mall. By the end of March 2003 only some UI staff remained at the 4th Street
location. The building covers 40,068 square feet. The vacated space is approximately
27,000 square feet. Therefore, 67 percent of the space has been vacant since March
2003.

In April 2003 the UI program began paying the entire $27,305 monthly lease cost. Of
this amount, $18,294 ($27,305 x 67 percent) represents cost paid for vacant space.
According to AESD officials, attempts have been made to terminate the lease or to find
other occupants. However, as of October 21, 2004, the situation remains the same and
UI is still paying for the vacant space.

For the period April 2003 through October 2004 (19 months), $347,586 (19 x $18,294)
has been charged to Federal UI grant funds for vacant space. If the situation remains


U.S. Department of Labor—Office of Inspector General                                     13
Report Number: 06-05-002-03-390
Audit Of Allegations Regarding ETA Funds Granted To Arkansas


the same, UI will continue to pay $18,294 per month for vacant space through the end
of the lease term, October 31, 2005.

The $347,586 represents an expenditure of grant funds where no benefit was received;
therefore, these costs are questioned as improper charges to the UI grant.

Recommendation

2. We recommend the Assistant Secretary for Employment and Training disallow and
   recover the $347,586 of UI administrative costs incurred for vacant office space
   through October 31, 2004, and any other charges for vacant space since October
   2004.

Arkansas Employment Security Department’s Response

The State responded:

       Based on lack of funding, all subleases were terminated or not
       renewed. Also a mold problem was discovered in parts of the
       building occupied by the Arkansas Employment Security
       Department Rapid Response unit. Therefore, this unit was moved
       to the Arkansas Employment Security Department central office in
       rent-free space.

       We believe the Arkansas Workforce Investment Board and the
       Arkansas Employment Security Department acted in good faith in
       making the decisions that are questioned in the draft audit report.

OIG Conclusion



The finding and recommendation remain unchanged.




Elliot P. Lewis
December 6, 2004




14                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-05-002-03-390
                                Audit Of Allegations Regarding ETA Funds Granted To Arkansas




Appendices




U.S. Department of Labor—Office of Inspector General                                     15
Report Number: 06-05-002-03-390
Audit Of Allegations Regarding ETA Funds Granted To Arkansas




                      THIS PAGE INTENTIONALLY LEFT BLANK




16                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-05-002-03-390
                                Audit Of Allegations Regarding ETA Funds Granted To Arkansas




                                                                             APPENDIX A

Background

The Arkansas Division of Legislative Audit (ADLA) received a complaint alleging
mismanagement of state and/or Federal funds by the Arkansas Workforce Investment
Board (AWIB), the Arkansas Employment Security Department (AESD), and the
Northeast Arkansas Workforce Investment Board (NEAWIB). The ADLA requested the
Office of Inspector General’s assistance in reviewing the allegations involving U. S.
Department of Labor (DOL) funds.

The AESD receives funds from the DOL’s Employment and Training Administration
(ETA) for state activities that are then allocated to:

   •   AWIB;
   •   Local Workforce Investment Boards (LWIB);
   •   Fiscal Agents for LWIBs who provide technical assistance, handle grant funds
       and monitor the providers;
   •   Chief Elected Officials (CEO) – i.e., county judges and mayors; and
   •   WIA Title I providers.

The AESD provides the funds to the AWIB for its operations. The AWIB provides state
level policy and procedures, and oversees CEOs and LWIBs. The AWIB appointed
AESD to be the Governor's Administrative Entity. The AESD is responsible for
monitoring and fiscal oversight of those agencies that receive funds.

The OIG conducted a performance audit of the following allegations involving U.S.
Department of Labor (DOL) grant funds:

   1. The Northeast Arkansas Workforce Investment Board (NEAWIB) in Jonesboro,
      Arkansas, promised Nestle Corporation $1 million as incentive money to attract
      the industry to Jonesboro.

   2. Under a 5-year multi-million dollar lease, AESD is paying for vacant space at
      property located at 4th and Main in Little Rock, Arkansas.




U.S. Department of Labor—Office of Inspector General                                     17
Report Number: 06-05-002-03-390
Audit Of Allegations Regarding ETA Funds Granted To Arkansas




       THIS PAGE INTENTIONALLY LEFT BLANK




18                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-05-002-03-390
                                Audit Of Allegations Regarding ETA Funds Granted To Arkansas


                                                                             APPENDIX B

Objectives, Scope, Methodology, and Criteria

Objectives

Our audit focused on the allegations against the AWIB, the AESD, and the NEAWIB, as
it relates to USDOL funds


Scope

For the allegation regarding the incumbent worker training, we reviewed the AWIB’s
minutes dated May 8, 2001, through August 20, 2004; and, the NEAWIB’s minutes
dated June 7, 2001, and July 26, 2001. For the allegation regarding rent charges, we
looked at rent charges for the period April 2003 through October 2004.


Methodology

We performed fieldwork from July 20, 2004, through September 8, 2004, including work
at the AESD and AWIB offices in Little Rock, Arkansas, and Nestle’s food processing
plant in Jonesboro, Arkansas. Additional analytical procedures were performed in the
regional audit office through December 6, 2004. The procedures used in conducting
our audit included 1) interviewing AWIB, AESD, NEAWIB, and Nestle Corporation staff,
2) reviewing participant files, previously issued audit reports and state auditors’ working
papers, and other documents as related to the allegations, and 4) researching Federal
and state laws, regulations, policies, and procedures.

Our procedures consisted of analysis of the two issues from the allegations and related
documentation, along with interviews.

Generally, sampling was not used; however, we judgmentally selected 20 incumbent
worker trainees (out of approximately 400) from attendance rosters submitted by Nestle
to the AWIB for the months of February 2003 through October 2003, and reviewed their
personnel files. The costs we questioned covered the period February 4, 2003, through
October 2003.

We did not evaluate or test management controls over the AESD’s systems for
awarding contracts or allocating costs to grant programs. This report is not intended to
provide any assurance over those controls.

We conducted our performance audit in accordance with Government Auditing
Standards.



U.S. Department of Labor—Office of Inspector General                                     19
Report Number: 06-05-002-03-390
Audit Of Allegations Regarding ETA Funds Granted To Arkansas


                                                                APPENDIX B Continued


Criteria

The following criteria were use in accomplishing our audit:

Workforce Investment Act of 1998

Final WIA Rules dated August 11, 2000, published in 20 CFR, Subpart(s) 665.210,
665.220 and 667.262.

OMB Circular A-87, Federal Cost Principles for State and Local Grantees

Social Security Act, as amended, Title III, Section 302(a)

Arkansas Incumbent Workforce Training Program PY 2002 Application and Instructions,
page 5.




20                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-05-002-03-390
                                Audit Of Allegations Regarding ETA Funds Granted To Arkansas


                                                                             APPENDIX C

Acronyms and Abbreviations




ADLA          Arkansas Division Legislative Audit

AESD          Arkansas Employment Security Department

AWIB          Arkansas Workforce Investment Board

CEO           Chief Elected Official

DOL           U.S. Department of Labor

ETA           Employment and Training Administration

LWIB          Local Workforce Investment Boards

NEAWIB        Northeast Arkansas Workforce Investment Board

OIG           Office of Inspector General

OJT           On-the-job training

RFP           Request for Proposal

UI            Unemployment Insurance

W/P           Wagner-Peyser

WIA           Workforce Investment Act




U.S. Department of Labor—Office of Inspector General                                     21
Report Number: 06-05-002-03-390
Audit Of Allegations Regarding ETA Funds Granted To Arkansas




                      THIS PAGE INTENTIONALLY LEFT BLANK




22                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-05-002-03-390
                                Audit Of Allegations Regarding ETA Funds Granted To Arkansas


                                                                               Appendix D




Auditee Response




U.S. Department of Labor—Office of Inspector General                                     23
Report Number: 06-05-002-03-390
Audit Of Allegations Regarding ETA Funds Granted To Arkansas




                      THIS PAGE INTENTIONALLY LEFT BLANK




24                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-05-002-03-390
                                Audit Of Allegations Regarding ETA Funds Granted To Arkansas




U.S. Department of Labor—Office of Inspector General                                     25
Report Number: 06-05-002-03-390
Audit Of Allegations Regarding ETA Funds Granted To Arkansas




26                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-05-002-03-390
